                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A04100060                                                                   Page 1 of 1



    We received notice from                                                             ) that $20,000 in
    participant support funds provided in an NSF grant1 were improperly converted into funds for
    supplies. The original approved budget called for $5,000 in travel, $20,000 in participant support,
    and $5,000 in materials and supplies.          approved a proposal to change the budget to reflect
    $4,000 in travel, $18,000 in participant support, and $8,000 in material and supplies. We obtained a
    letter fiom the PI^, notifying       that contrary to his approved budget, he had spent $20,650 on
    supplies, $4200 for travel, and $5,150 for equipment maintenance, scientific services, and mail. That
    correspondence requested a post-facto approval of the expenditures. That request was denied. We
    contacted the institution3and raised the matter with the Office of
    That office reviewed the expenditures under the award and ensured that any funds improperly
    expended were returned to NSF. We received a copy of the final FCTR for the award, indicatingthe
    return of $18,763.51 of funds to NSF.
